is
I

C@OQCKLE

; E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-843
NEW YORK STATE RIFLE &
PISTOL ASSOCIATION, INC., et al.,
Petitioners,

Vv.

KEITH M. CORLETT, IN HIS OFFICIAL
CAPACITY AS SUPERINTENDENT OF
NEW YORK STATE POLICE, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FIREARMS POLICY COALITION AND FIREARMS POLICY FOUNDATION IN SUPPORT
OF PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 5451 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of January, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

, GENERAL NOTARY-State of Nebraska 1 / A Choy
; RENEE J. GOSS: 9. ‘.
My Comm. Exp. September 5, 2023
Notary Public Affiant 40516
